PROOF OF SERVICE
I, Daniel i. Heffley, do swear or declare that on this date, May 20, 2021, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMNA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel,
and on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Elisabeth Bennington, Esq.
5854 Ellsworth Avenue
Pittsburgh, PA 15232

Jessica Lucas, Esq.
707 Grant Street
Suite 3800
Pittsburgh, PA 15219

Raymond A. Swan, Esq.
Suite 3A02
One Meridian Boulevard
Wyomissing, PA 19610

John V. DeMarco, Esq.
Suite 2921
One PPG Place
Pittsburgh, PA 15222

Anthony J. Williott, Esq.
501 Grant Street
Union Trust Building, Suite 700
Pittsburgh, PA 15219

Amy J. Coco, Esq.
429 Fourth Avenue
Suite 602
Pittsburgh, PA 15219

James R. Schadel, Esq.
429 Fourth Avenue
Suite 602
Pittsburgh, PA 15219

Charlene S. Seibert, Esq.
501 Grant Street
Union Trust Building, Suite 700
Pittsburgh, PA 15219

Kimberly Steele
224 College Avenue
Oakmont, PA 15139

Mark Steele
405 Southwick Court
Mars, PA 16046

Jocelyn Steele
9 Greenwood Street
Oakmont, PA 15139

James Bozigar
590 S. Braddock Avenue
Pittsburgh, PA 15213

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 20, 2021

Daniel J. Heffley

